                                              NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

 Case Number: A14060029                                                         Page 1 ofl


         We received an allegation that the subject! plagiarized ideas, from a paper
         acknowledging NSF support,2 into her manuscript.3 The subject has no NSF
         grants, and the subject's manuscript acknowledged support from another funding
         agency. 4 Accordingly, we concluded this allegation lies outside our jurisdiction and
         thus is more appropriately pursued by the non-NSF funding agency. Therefore, this
         case is closed with no further action taken.




              The subject's manuscript acknowledged support from
              4                                                                  which is a
         grant from the European Research Council.



NSF OIG Form 2 (11/02)
